                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

        Case Number: A04-48                                                                       Page 1 of 1



             An NSF PO' forwarded a concern to us from a peer reviewer2that the vita of an individual3listed
             as a member of the advisory board, in a proposal4,was outdated and was a photocopy and it was
             questioned whether the proposed member of the advisory board was ever actually contacted to
             perform this hnction as part of the grant.

             We wrote to the subject5and he admitted that he had not contacted the individual before listing
             her as an advisor nor did he obtain her permission to use her vita in the proposal. He stated that
             he had contacted the other four advisors. He said the individual had agreed to be an advisor in a
             previous Federal proposal and therefore he added her to the list of advisors.

             The subject did include a copy of an older proposal to another Federal agency that did include the
             individual as an advisor. We contacted the individual whose vita was used without permission
             and she said that a few years ago she believes she was contacted by the subject to serve as an
             advisor on a grant, however, she did state that she knew for certain that she had not agreed to
             serve in an advisory capacity for the most recent NSF proposal.

             Given the statements of the subject and the individual, it appears reasonable that the subject did
             contact the individual a few years ago and that she may have agreed to serve in an advisor
             capacity on the subjects proposal to the other Federal agency. This explains how he obtained a
             copy of the individual's vita and why he used it.


I111l        Although this action is a deviation from accepted practices, it does not warrant any fixther action.
             We have written the subject a letter and reminded him of the scholarly standards that NSF
             expects in all aspects of a proposal and take no further action.




  NSF OIG Form 2 (1 1/02)
